<html>
<title> - FACING SADDAM'S IRAQ: DISARRAY IN THE INTERNATIONAL COMMUNITY</title>
<body><pre>[Senate Hearing 106-261]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-261


 
      FACING SADDAM'S IRAQ: DISARRAY IN THE INTERNATIONAL COMMUNITY

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 28, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations

                               <snowflake>

 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate


                      U.S. GOVERNMENT PRINTING OFFICE
 61-363 CC                   WASHINGTON : 2000
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Butler, Hon. Richard, former Executive Chairman, United Nations 
  Special Commission (UNSCOM), Diplomat in Residence, Council on 
  Foreign Relations, New York, NY................................     3
    Prepared statement of........................................     8
Helms, Jesse, U.S. Senator from North Carolina, prepared 
  statement......................................................     2

                                 (iii)



     FACING SADDAM'S IRAQ: DISARRAY IN THE INTERNATIONAL COMMUNITY

                              ----------                              


                      TUESDAY, SEPTEMBER 28, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:35 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Jesse Helms 
(chairman of the committee) presiding.
    Present: Senators Helms, Brownback, Kerry, Wellstone.
    The Chairman. The committee will come to order, and as 
usual at this time of year, every Senator has two other 
committee meetings to attend. It is difficult to be two places 
at once. They will be coming in later, Mr. Ambassador, and you 
being the first witness. And let me inform the young people who 
are welcome here this morning that the first witness is the 
Honorable Richard Butler, the former Executive Chairman of the 
United Nations Official Commission on Iraq, called UNSCOM. He 
is a diplomat now in residence on the Council on Foreign 
Relations in New York City.
    And, Mr. Ambassador, we, of course, welcome you and very 
much appreciate your going so far out of your way to 
participate in this important hearing of the Foreign Relations 
Committee. As we meet this morning, the U.N. Security Council 
is trying to plan a new weapons inspection regime for Iraq to 
replace UNSCOM, the commission that you headed. In order to buy 
off certain Security Council members, some may be working to 
ease the existing sanctions on Iraq.
    Now, I have a few thoughts on the deliberations going on up 
in New York City. I have heard some argue that any weapons 
inspections in Iraq are better than no inspections. I don't 
subscribe to that myself, for one obvious reason. Meaningful 
inspections must be intrusive, thorough, and open-ended, in 
other words, not different from the inspections conducted by 
your organization, sir, when you headed it.
    If anybody concludes, therefore, that I would regard any 
new inspection regime accepted by Saddam Hussein as a charade, 
that conclusion is perfectly valid, for that is precisely the 
way I feel about it. Worse yet, in exchange for whatever 
inspection regime Saddam and his allies will agree upon in the 
United Nations, the United Nations will ease sanctions on Iraq, 
and our friends at the Department of State obviously believe 
that easing sanctions on Iraq will undercut the argument that 
it is sanctions that are starving the Iraqi people, which it 
seems to me is bureaucratic nonsense. It is Saddam Hussein, 
nobody else, who is starving the people of Iraq. Food and 
medicine are rotting in Iraqi warehouses undistributed while 
little children suffer and die.
    In northern Iraq, where the United Nations distributes 
food, the child mortality rates are below prewar levels, and in 
the center and the south where Saddam Hussein is in charge, 
rates--mortality rates, that is--are twice, are twice what they 
were before the war. Forbes magazine recently rated Saddam 
Hussein as one of the richest men in the world, with $6 billion 
in personal wealth. So lifting sanctions on Iraq will do 
nothing more than enable Saddam Hussein to import the building 
blocks for weapons of mass destruction, and I have no doubt 
about his interest in doing precisely that.
    UNSCOM was drummed out of Iraq, and since that happened, 
Saddam has been up to his old dirty tricks and while a new 
inspection regime might--I think I want to underscore might 
somehow--might slow that process a bit here and there, Saddam 
Hussein is not going to tolerate a serious weapons inspection 
and monitoring effort for very long. So it is back to the 
drawing board and what we will do? We will buy him off with 
nuclear reactors? Not with the willingness of this Senator.
    We need to face up to the fact that we are playing Saddam 
Hussein's game, not ours. He wanted inspectors out and out they 
went. He wants sanctions lifted and sanctions are being eased. 
This game can be played for a little while while scarcely 
anybody is paying attention, but it has to end somewhere. 
Clearly the majority of the permanent Security Council members 
don't care about the Council's credibility. But if the United 
States does not stand up and be counted, Saddam will have 
tweaked the noses of weak-kneed ``diplomats'' once more.
    Sooner or later, and I imagine sooner rather than later, 
this administration will have to admit that Saddam Hussein is 
determined to acquire weapons of mass destruction at any price, 
so if the United States is serious about ensuring stability in 
that region by disarming Iraq, Saddam is going to have to be 
ousted first.
    [The prepared statement of Senator Helms follows:]

               Prepared Statement of Senator Jesse Helms

    Ambassador Butler, we welcome you and very much appreciate your 
going out of your way to participate in this important hearing of the 
Foreign Relations Committee.
    As we meet today, the United Nations Security Council is 
contemplating a new weapons inspection regime for Iraq to replace 
UNSCOM, the Commission you headed. In order to buy off certain Security 
Council members, some may be working to ease the existing sanctions on 
Iraq.
    I have a few thoughts on the deliberations going on up in New York. 
I have heard it argued that any weapons inspections in Iraq are better 
than no inspections. I do not subscribe to such a view for one obvious 
reason: Meaningful inspections must be intrusive, thorough and open-
ended--in other words, not different from the inspections conducted by 
UNSCOM. If anyone concludes, therefore, that I regard any new 
inspection regime accepted by Saddam Hussein as a charade, the 
conclusion will be valid--for that is precisely my apprehension.
    Worse yet, in exchange for whatever inspection regime Saddam and 
his allies will agree to, the United Nations will ease sanctions on 
Iraq. Our friends at the Department of State obviously believe that 
easing sanctions on Iraq will undercut the argument that it is 
sanctions that are starving the Iraqi people.
    Which, it seems to me, is bureaucratic nonsense. It is Saddam who 
is starving the people of Iraq. Food and medicine are rotting in Iraqi 
warehouses while little children suffer and die. In Northern Iraq, 
where the United Nations distributes food, child mortality rates are 
below pre-war levels. In the center and south (where Saddam is in 
charge) mortality rates are twice what they were before the war.
    Meanwhile, Forbes Magazine recently rated Saddam Hussein as one of 
the richest men in the world, with $6 billion in personal wealth. So, 
lifting sanctions on Iraq will do nothing more than enable Saddam 
Hussein to import the building blocks for weapons of mass destruction. 
And I have no doubt about his eagerness to do so.
    Since UNSCOM was drummed out of Iraq, Saddam has been up to his old 
dirty tricks. And while a new inspection regime might--might!--slow 
that process a bit here and there, Saddam is not going to tolerate a 
serious weapons inspections and monitoring effort for very long.
    Then it's back to the drawing board. And what will we do? Buy him 
off with nuclear reactors? Not with the willingness of this Senator. We 
need to face up to the fact that we are playing Saddam Hussein's game. 
He wanted inspectors out and out they went. He wants sanctions lifted 
and sanctions are being eased. This game can be played for a little 
while while scarcely anybody is paying attention, but it has to end 
somewhere. Clearly, the majority of the Permanent Security Council 
members don't care about the Council's credibility. But if the United 
States doesn't stand up and be counted, Saddam will have tweaked the 
noses of weak-kneed ``diplomats'' once again.
    Sooner or later--sooner rather than later--this Administration will 
have to admit that Saddam Hussein is determined to acquire weapons of 
mass destruction at any price. So if the United States is serious about 
ensuring stability in that region by disarming Iraq, Saddam will have 
to be ousted.
    Ambassador Butler, I will have some questions after your statement. 
Again, I commend your courageous work in Iraq. I know we may disagree 
about some matters, but you have my unreserved admiration and respect 
for your leadership of UNSCOM.

    The Chairman. So, Mr. Ambassador, I will have some 
questions after your statement. Again, I commend your 
courageous work. It may be that we disagree about some matters, 
but you have my unreserved admiration and respect for your 
leadership in that job. You may proceed, sir.

  STATEMENT OF THE HONORABLE RICHARD BUTLER, FORMER EXECUTIVE 
CHAIRMAN, UNITED NATIONS SPECIAL COMMISSION (UNSCOM), DIPLOMAT 
    IN RESIDENCE, COUNCIL ON FOREIGN RELATIONS, NEW YORK, NY

    Mr. Butler. Mr. Chairman, thank you very much for your 
great kindness in inviting me here today to this honorable 
body. I am deeply honored to sit here before you and to have 
the opportunity to make a brief statement and to attempt to 
answer whatever questions you and your colleagues, whomever of 
them are able to be here, are able to pose to me, and I am very 
conscious of the fact that this meeting is a meeting that is on 
the record, and I will want, therefore, to be as clear and as 
forthright as I can be.
    I propose to make a brief statement, the text of which has 
been made available, but in which there will be one or two 
minor corrections, and I would ask that they be made for the 
record, and then presumably we'll move into a period of 
discussion.
    The Chairman. The reason I turned abruptly, I understood 
you to say off the record.
    Mr. Butler. On the record.
    The Chairman. She corrected me. I don't hear everything 
here sometimes. It is on the record, and we will proceed.
    Mr. Butler. I am conscious of the fact that this is on the 
record. That is the way I prefer it to be and, therefore, I 
will try to speak with as much clarity and forthrightness as I 
can muster. My statement will talk a little bit about the 
history of how we got to where we are now and then, of course, 
a little bit about where we are now and the choices that lie in 
front of us.
    So I will begin. Eight years ago, following the expulsion 
of Iraq from Kuwait, the Security Council of the United Nations 
passed resolutions relating to the disarmament of Iraq's 
weapons of mass destruction and sanctions. Those resolutions 
were amongst the most detailed resolutions ever adopted by the 
Security Council, but their key elements are able to be 
summarized simply.
    First, Iraq was to be disarmed of all nuclear, chemical, 
and biological weapons and the means of manufacturing them and 
was prohibited from holding, acquiring, or manufacturing 
missiles which could fly further than 150 kilometers. Second, 
only after the Security Council agreed that Iraq had taken all 
of the disarmament actions required of it would the oil embargo 
and the related financial strictures be removed.
    The Security Council created the special commission, 
UNSCOM, to carry out this work of disarmament with Iraq. Iraq 
was required to cooperate fully with the Commission and to give 
it immediate and complete access to all relevant sites, 
materials, and persons. Another United Nations organization, 
the International Atomic Energy Agency, was given a parallel 
responsibility to that of UNSCOM, but in its case in the area 
of its competence; namely, nuclear weapons. And IAEA and UNSCOM 
worked hand in hand.
    The basic system for disarmament which was established had 
three parts. Iraq would declare in full its prohibited 
materials. The Commission would verify those declarations, and 
then the illegal weapons and related materials so revealed 
would be and I quote, ``destroyed, removed or rendered 
harmless'' under international supervision.
    The key disarmament resolution was Security Council 
Resolution 687. Another resolution was subsequently adopted 
under which UNSCOM would monitor all relevant activities in 
Iraq as a means of seeking to ensure that illegal weapons were 
not reconstituted following the disarmament phase, and the main 
resolution dealing with that monitoring was Security Council 
Resolution 715.
    Now, it is essential to mention that the Security Council 
had in mind that the disarmament of Iraq would take place very 
quickly. This was reflected in the fact that the declarations, 
step one, the declarations sought from Iraq were required to be 
delivered within 15 days. And thus it was broadly anticipated 
that thereafter, the work of destroying, removing or rendering 
harmless all relevant materials might be completed in a period 
of between 9 and 12 months.
    Mr. Chairman, I want to emphasize this: 15 days. And 3,000 
days later, those declarations are still not in, complete, or 
honest. So what has been the practical experience with that 
basic setup? Iraq's actions may be summed up as having four 
main characteristics.
    First, its declarations were never complete. From the 
beginning, Iraq embarked upon a policy of making false 
declarations. Second, Iraq divided its illegal weapons holdings 
into two parts, the portion it would reveal and the portion it 
concealed. Third, to mask its real weapons of mass destruction 
capability, Iraq embarked upon a program of unilateral 
destruction, itself illegal, unilateral destruction of a 
portion of its weapons. And finally, it refused to comply with 
the resolutions of the Security Council, in many ways, very 
many ways, so that the Commission was never able to exercise 
the rights spelled out for it in the resolutions of the 
Security Council.
    In this respect, I am talking about rights of access, 
rights of inspection, rights of aviation, things that I readily 
admit a year ago must have been driving good folks crazy: Why 
were we going on about things like inspections? And it was 
because the law gave us those rights so we could get our job 
done. And from the beginning, Iraq denied us those rights.
    In practical terms, this has meant that the job of 
disarming Iraq, which should have taken about a year, is still 
not complete. Now, over--a little over a year ago, during 
consultations in Baghdad, the Deputy Prime Minister of Iraq, 
Tariq Aziz, sitting across the table from me and my colleagues, 
simply demanded of me, there and then, that I declare Iraq 
disarmed. This was consistent with the position Iraq had stated 
during preceding months. They commenced writing to the 
Secretary General, writing to Secretary Council, saying in 
public, we are disarmed, and he demanded that I leave the room, 
go back to New York, and say, ``I declare Iraq disarmed.''
    Mr. Chairman, I refused to do that. I told him I would not 
do that because I could not do it. I was not able to. Because 
we had given Iraq a list of remaining materials and evidence 
that we needed to complete the disarmament job, to be able to 
not make a mere declaration, but to show by evidence that the 
job was done, and Iraq had refused to give us that evidence, so 
I refused to agree to his demand. A few days later, Iraq shut 
down all work by UNSCOM and the International Atomic Energy 
Agency.
    Now, as a result of these actions, there has been no 
disarmament or monitoring work in Iraq for a year, and 
throughout that period, the Security Council has been unable to 
reach any agreement on how its resolutions may be enforced, and 
on how the work of disarmament and monitoring may be resumed. 
Earlier this year in the context of the Security Council's 
consideration of what it might do to solve this problem, I 
directed that UNSCOM provide to the Council a basic document 
setting out the then-current state of affairs with respect to 
the disarmament of Iraq's proscribed weapons and ongoing 
monitoring and verification in Iraq. That document was in due 
course published as Security Council document 94 of 1999. It 
remains the basic statement of position.
    The initial response, by the way, of some members of the 
Security Council was to seek to prevent its publication, was to 
seek to suppress that document. But that was able to be solved. 
That did not happen, and the document is now a public document. 
The Council subsequently undertook its own examination of the 
position in special panels of inquiry, and in April 1999 the 
panel on disarmament of the Security Council, disarmament and 
monitoring, issued a report which came to broadly similar 
conclusions to those of UNSCOM Document No. 94.
    Now, since that time, there has been a continuing 
negotiation in the Security Council about a draft resolution 
which would address both the disarmament and monitoring issues 
and the sanctions issues.
    One draft resolution provided by Russia would essentially 
accept, accept the Iraqi claim that it is in fact disarmed, and 
remove sanctions altogether, in return for which Iraq would be 
obliged to accept an ongoing monitoring system. Another draft 
resolution--and China now supports that resolution, and I think 
France has indicated it could do the same.
    Now, another draft resolution tabled initially by the 
United Kingdom and the Netherlands would in fact establish 
UNSCOM No. 2, a successor organization to UNSCOM with a 
different name and would charge it with bringing the 
disarmament task to conclusion. No assumption would be made 
that there are no more such tasks, unlike the Russian 
resolution. To bring those tasks to conclusion, and to 
establish the serious ongoing monitoring system.
    This resolution would not simply abolish sanctions, as 
would the Russian one, but would suspend them for renewable 
periods, provided Iraq remained in compliance with the terms of 
the resolution. Now, in recent months, negotiations have tended 
to focus increasingly on this second British-Dutch draft 
resolution. There doesn't seem to be much interest in the 
Russian-Chinese one. United States administration has indicated 
broadly that it could go along with the British-Dutch draft.
    However, recent reports have suggested that it is in fact 
unlikely that the Security Council will be able to reach 
consensus on this draft, and moreover, statements from Baghdad 
have indicated that the Government of Iraq would not be 
prepared to cooperate with that resolution even in the event 
that it were adopted by consensus. Now, Mr. Chairman, this 
state of affairs has many aspects and implications, but I want 
to mention two that I believe are of grave concern.
    One is in the area of arms control, and the other is in the 
area of the authority of the Security Council. Now, with 
respect to arms control, Iraq's challenge to the 
nonproliferation regimes is the most serious and direct 
challenge ever faced by those regimes, quite specifically by 
what I call cheating from within.
    This is the worst challenge to the nonproliferation 
regimes. Cheating from within is where a state signs up, in 
this case, for example, promises not to make a nuclear weapon 
and the next day proceeds to do so secretly. Cheating from 
within.
    Iraq has posed that challenge, and I suggest in all of the 
nonproliferation fields, nuclear, chemical, biological, the 
most serious challenge that those regimes have ever faced, and 
I think it is a matter of serious concern. But if Iraq is able 
to get away with it, successfully to ignore its own obligations 
under the various weapons of mass destruction nonproliferation 
regimes, then the fundamental credibility of those regimes as 
such around the world will be called into question.
    Second, all of the resolutions adopted by the Security 
Council on Iraq and its disarmament have the force of 
international law pursuant to Chapter 7 and in particular, 
Article 25 of the charter of the United Nations. Now, it 
follows from this that if Iraq succeeds in rejecting those 
resolutions, those pieces of law, it will by that action have 
most deeply harmed the lawgiver itself and its authority; 
namely, the Security Council. And, Mr. Chairman, I do not know 
what the consequences of that would be, but I suspect that they 
would be very broad, maybe even incalculable.
    I wrote an article recently published in the current issue 
of the journal Foreign Affairs, the September-October 1999 
issue of that journal, the organ of the Council on Foreign 
Relations. And I proposed in that article, which deals with 
repairing the Security Council, I proposed that there should be 
a consultation amongst permanent members of the Council on the 
question of the veto power. I have not proposed that it be 
removed. I think that is impossible. I will not even discuss 
it. But I have proposed that they discuss the uses to which it 
may be put, and very specifically, I have proposed that they 
should reach an agreement that the veto should not be used to 
protect a clear transgressor of an arms control undertaking, 
that such a use of the veto or threatened use of the veto 
should be considered inadmissible.
    Now, Iraq is in such a position of noncompliance today, yet 
certain permanent members of the Security Council, states with 
the veto, appear to be unprepared to insist upon Iraq's 
compliance with the resolutions, with the law that they 
themselves have adopted. I think that is deplorable. But more 
importantly, I do not believe, Mr. Chairman, that Iraq would be 
able to continue to defy the Security Council, not for very 
long, if those five permanent members were in fact to stand 
together in insisting to Iraq that it must return to compliance 
with the law. Their unity is essential.
    Now, finally, I will say a very brief word about the issue 
of sanctions, to which you in your statement referred. I want 
to make clear that in my role as Executive Chairman of UNSCOM, 
sanctions were in fact never within my responsibility. My job 
was for disarmament and arms control. The sanctions were 
designed by and applied by the Security Council in order to 
back up and to provide an incentive for Iraq to comply with the 
resolutions of the Council.
    The key connection between disarmament and sanctions was 
the one that I mentioned earlier, namely, in Resolution 687, 
where it says that when the Security Council is satisfied that 
Iraq has been disarmed--the words are, ``has taken all the 
actions required of it with respect to disarmament''--then it 
would abolish the oil embargo, the embargo against the import 
by other states of oil from Iraq.
    Now, the British-Dutch resolution, may I say, states quite 
specifically, and I quote, ``The conditions do not exist that 
would enable the council to take a decision pursuant to 
Resolution 687 to lift the prohibitions referred to in that 
resolution.'' It specifically says they are not yet disarmed 
and so the oil embargo cannot yet go.
    Now, we will talk about this in a moment, I am sure. It 
goes on to say many other things, but it does actually say 
that. Now, in this context of sanctions, I believe it is a 
point of fundamental significance, it is a point, Mr. Chairman, 
you made in your statement, that the refusal by Iraq to comply 
with the disarmament law has been the main source of the 
continuation of sanctions. The key to sanctions relief has been 
disarmament. That is been the case for 8 years, the eight long 
years in which ordinary Iraqis have suffered from sanctions.
    The key to it has been disarmament and Saddam Hussein has 
always had that key in his hand. He has always refused to turn 
it. That concludes my statement, and I thank you for your 
attention.
    [The prepared statement of Mr. Butler follows:]

               Prepared Statement of Hon. Richard Butler

    Eight years ago, following the expulsion of Iraq from Kuwait, the 
Security Council of the United Nations passed resolutions relating to 
the disarmament of Iraq's weapons of mass destruction and sanctions. 
Those resolutions were amongst the most detailed resolutions ever 
adopted by the Security Council, but their key elements are able to be 
summarized simply.
    First, Iraq was to be disarmed of all nuclear, chemical, and 
biological weapons and the means of manufacturing them and was 
prohibited from holding, acquiring or manufacturing missiles which 
could fly further than 150 kilometers.
    Secondly, only after the Security Council agreed that Iraq had 
taken all of the disarmament actions required of it would the oil 
embargo and related financial strictures be removed.
    The Security Council created the Special Commission, UNSCOM, to 
carry out this work of disarmament, with Iraq. Iraq was required to 
cooperate fully with the Commission and to give it immediate and 
complete access to all relevant sites, materials and persons.
    The basic system for disarmament which was established had three 
parts--Iraq would declare in full its prohibited materials, the 
Commission would verify those declarations, and the illegal weapons 
materials thus revealed would be ``destroyed, removed or rendered 
harmless,'' under international supervision.
    The key disarmament resolution was Security Council resolution 687. 
Another resolution was subsequently adopted under which UNSCOM would 
monitor all relevant activities in Iraq as a means of seeking to ensure 
that illegal weapons were not reconstituted, following the disarmament 
phase. The main resolution dealing with monitoring was Security Council 
resolution 715.
    It is essential to mention that the Security Council had in mind 
that the disarmament of Iraq would take place very quickly. This was 
reflected in the fact that the declarations sought from Iraq were 
required within fifteen days. It was broadly anticipated that, 
thereafter, the work of destroying, removing or rendering harmless all 
relevant materials might be completed in a period of between nine and 
twelve months.
    What has been the practical experience?
    Iraq's actions may be summed up as having three main 
characteristics. In the first instance, its declarations were never 
complete. From the beginning, Iraq embarked upon a policy of making 
false declarations. Secondly, Iraq divided its illegal weapons holdings 
into two parts--the portion it would reveal and the portion it decided 
to conceal. Thirdly, to mask its real weapons of mass destruction 
capability, Iraq also embarked on a program of unilateral destruction 
of a portion of its weapons. Finally, it refused to comply with the 
resolutions of the Security Council, in very many ways, so that the 
Commission was never able to exercise the rights spelled out for it in 
the resolutions of the Security Council.
    In practical terms, this has meant that the job of disarming Iraq, 
which should have taken about a year, is still not complete.
    A little over a year ago, during consultations in Baghdad, Tariq 
Aziz demanded of me that I declare Iraq disarmed. This was consistent 
with the position Iraq had stated, during preceding months, including 
in writing to the Secretary-General of the United Nations and to the 
Security Council. I refused to do so on the ground that I was not able 
to. We had given Iraq a list of the remaining materials, the evidence, 
that it needed to provide in order for UNSCOM to complete the 
disarmament job. Iraq had failed to provide that evidence. Following my 
refusal to agree to Aziz's demand, Iraq shut down all work by UNSCOM 
and the International Atomic Energy Agency in Iraq.
    As a result of these actions, there has been no disarmament or 
monitoring work in Iraq for a year, and throughout that period the 
Security Council has been unable to reach any agreement on how its 
resolutions may be enforced and/or the work of disarmament and 
monitoring resumed.
    Earlier this year, in the context of the Security Council's 
consideration of what it might do, I directed that UNSCOM provide to 
the Council a basic document setting out the then current state of 
affairs with respect to the disarmament of Iraq's proscribed weapons 
and on ongoing monitoring and verification in Iraq. That document, 
published as S1999/94, remains the basic statement of position. The 
initial response of some members of the Security Council was to seek to 
suppress this document but, in the event, it was published.
    The Council subsequently undertook its own examination of the 
position in special panels of enquiry, and in April 1998 the panel on 
disarmament and monitoring issued a report which came to broadly 
similar conclusions as those set forth in UNSCOM's document.
    Since that time there has been a continuing negotiation in the 
Security Council about a draft resolution which would address both the 
disarmament and monitoring issues and the sanctions issues.
    One draft resolution, provided by Russia, would essentially accept 
the Iraqi claim that it was disarmed and remove sanctions in return for 
which Iraq would be obliged to accept an ongoing monitoring system.
    Another draft resolution, tabled initially by the United Kingdom 
and the Netherlands, would establish a successor organization to 
UNSCOM, charge it with bringing specified disarmament tasks to 
conclusion, and establish an ongoing monitoring system. It would 
suspend sanctions for renewable periods of six months, provided Iraq 
continued to behave in compliance with the terms of the resolution.
    In recent months, negotiations have tended to focus increasingly 
upon the British-Dutch draft, and the United States administration has 
indicated, broadly, that it could go along with that draft. However, 
recent reports have suggested that it is unlikely that the Council will 
be able to reach consensus on this draft and, moreover, statements from 
Baghdad have indicated that the Government of Iraq would not be 
prepared to cooperate with such a resolution.
    This state of affairs has two main implications--one in the area of 
arms control and the other in the area of the authority of the Security 
Council.
    With respect to arms control, Iraq's challenge to the non-
proliferation regimes is the most serious and direct ever faced by 
those regimes. It is a matter of serious concern that, if Iraq is able 
to successfully ignore its own obligations under the various weapons of 
mass destruction non-proliferation regimes, then the fundamental 
credibility of those regimes could be harmed around the world.
    Secondly, all of the resolutions adopted by the Security Council on 
Iraq and its disarmament have the force of international law. If Iraq 
succeeds in rejecting those resolutions, it will by that action have 
deeply harmed the authority of the law-giver--the Security Council. The 
consequences of that event are incalculable and potentially broad.
    In an article I wrote on repairing the Security Council, which is 
now available in the September/October 1999 edition of the journal, 
Foreign Affairs, I proposed that there should be a consultation amongst 
permanent members of the Council on their veto power. Specifically, I 
proposed that the use of the veto to protect a clear transgressor of an 
arms control undertaking should be considered inadmissible. Iraq is in 
such a position of noncompliance today, yet certain permanent members 
of the Security Council appear unprepared to insist upon compliance 
with the resolutions and law which they themselves adopted. I do not 
believe that Iraq would be able to continue to defy the Security 
Council for very long if the five permanent members were, in fact, to 
stand together in insisting to Iraq that it return to compliance with 
the law.
    Finally, there is the issue of sanctions. As the former Executive 
Chairman of UNSCOM, sanctions were never within my responsibility. They 
were, designed and applied by the Security Council to back up and 
provide an incentive for Iraq to comply with the resolutions of the 
Council. The key connection between disarmament and sanctions was the 
one I have mentioned earlier, namely that when the Security Council is 
satisfied that Iraq has been disarmed it would then abolish the oil 
embargo.
    In this context, it is a point of fundamental significance that the 
refusal by Iraq to comply with the disarmament law has been the main 
source of the continuation of sanctions. The key to sanctions relief 
has always been disarmament. The Saddam Hussein regime has refused to 
pick up that key and turn it.

    The Chairman. Mr. Ambassador, it is a great statement. And 
I was thinking as you made it, and I followed you in the 
printed transcript, at the time you were trying to get 
compliance by Iraq, we got a dribble of reports here in the 
news media, and a dribble there, and they were more interested 
in who was the President's latest girlfriend, and I doubt that 
1 percent of the American people understand what has happened. 
And I do hope that some attention will be paid through the C-
SPAN or whoever it is that is covering this.
    Now, I have some questions, but underlining the portion of 
your prepared remarks which you delivered in this case, you say 
that a little over a year ago during consultations at Baghdad, 
you said that Tariq Aziz demanded that you declare Iraq 
disarmed. That was consistent with the prior position that Iraq 
had stated during preceding months, including in writing to the 
Secretary General of the United Nations and to the Security 
Council, and ``I refused,'' you said, to do so on the grounds 
that ``I was not able to do it,'' obviously because it was not 
so, and it would have been detrimental to anything that anybody 
considers self-protection of innocent nations and all the rest 
of it.
    You said further that, ``I refused to do so on the grounds 
that I was not able to. We had given Iraq a list of the 
remaining materials, the evidence it needed to provide in order 
for UNSCOM to complete the disarmament job. Iraq had failed to 
provide that evidence. Following my refusal,'' you said, ``to 
agree to Aziz's demand, Iraq shut down all work by UNSCOM.'' In 
other words, they shut you up and the International Atomic 
Energy Agency in Iraq.
    Now, at the time, how did you feel about the possibility 
that the people of any nation, and of course I am particularly 
interested in the United States, would understand what was 
really going on there? Did you--are you--were you concerned 
about the failure to report this to the people of all of the 
member nations of the United Nations? Were you concerned about 
that at the time?
    Mr. Butler. Well, the simple answer is, yes, of course I 
was, but I would like to go a little bit further than that. I 
fundamentally refused Aziz's demand because I was not prepared 
to lie. But I also said to him, and it is on a videotape that 
Iraqi propaganda machinery then put on television, amusingly, 
because they thought it showed a good case for them. But I 
actually said to him, you must understand, I cannot do 
disarmament by declaration. I cannot wave a magic wand. Either 
they are facts or they are not.
    And I had given him a list, which involved taking a risk--I 
was not absolutely sanguine, nor were my very competent 
professional staff absolutely sanguine about that list--of the 
key remaining disarmament requirements. It was not to make it 
easier for them, but it was to try to get a sensible picture of 
a larger landscape, a disarmament landscape that we gave them 
this list of the key priorities. I covered the truth that, the 
requirements of the truth by making clear to Aziz that this 
list represented the necessary conditions for Iraq to be 
disarmed; whether or not they would be the sufficient 
conditions would depend on the quality of the evidence they 
gave us.
    So we were walking a tight line here, and I had given him 
this list in that spirit 2 months earlier. And he had said come 
back to Baghdad in August. In the meantime, we will work on 
your list, you come back and see me in August and we will come 
to conclusion on that.
    When I came back in August, he said, well, you start the 
conversation, how did we do? And I said well, frankly, I do not 
see that you gave us anything that was on that list. I mean, we 
are in the same place that we were--we are in the same place we 
were 2 months ago. He listened more or less in silence and then 
at the end of the morning session, in a rather pompous way, 
said, ``This evening, come back this evening and I will give 
you the answer of the leadership of the Government of Iraq,'' 
which means Saddam. And it was when we started the evening 
meeting, a few minutes into it, that he put this demand on me.
    Now, am I concerned about understanding--sorry. I have to 
say one other thing. That list is reflected in that document 
that we published with the Security Council, Document No. 94. 
All the background material is there: the foundation stones on 
the basis of which we came to that list of necessary, maybe not 
sufficient, but priority conditions for disarmament. This is 
all thoroughly explained and documented.
    Now, in blowing us away on the 3rd of August last year, 
what Saddam Hussein was doing was saying, I refuse to give you 
those last remaining materials. I believe it is because that 
list was right, because they are materials that would really 
disarm him. He was saying I refuse to give you that. And he was 
saying I care more about retaining this weapons capability than 
I do about sanctions on 22 million ordinary Iraqis. That is 
what he was saying.
    He was also saying, third, I calculate that the split in 
the Security Council will give me comfort here, and I will be 
able to cut and run and get away with this. And that is what 
was happening. Now, I wanted ordinary people to understand 
that.
    Senator, Mr. Chairman, I have been approached a lot by the 
members of the general public in this country, and in other 
parts of the world, in ways that demonstrate that there is a 
good measure of understanding of how serious this situation is. 
But there is not an adequate understanding of what I have tried 
to lay out here today and what I am describing to you now, 
about how far we went toward trying to sensibly come to terms 
with the remaining elements of Iraq's weapons program--I would 
never use the word accommodate, but sensibly and intelligently 
come to terms with those remaining elements. And that when we 
did that, when we really made it as sharp and clear as 
possible, what we got was dismissal. Now, I do not think that 
that is adequately understood in public. I do not think that 
the implications of that that I mentioned here today are 
adequately understood.
    And finally, I think the fact that this story has 
disappeared somewhat from the headlines because of other 
stories, most recently Kosovo, now East Timor and so on in the 
political arena, does not mean that he has gone away. Does not 
mean that the threat is not there, does not mean that there is 
still not a job of most serious arms control to be done and 
preservation of the authority of the Security Council to be 
achieved. And it does not mean that he will not be back. I 
suspect he will, and maybe soon.
    The Chairman. One other, in reference to your prepared 
remarks which you delivered in this instance, you said that 
since that time, there has been a continuing negotiation in the 
Security Council about a draft resolution which would address 
both the disarmament and monitoring issues and the sanctions 
issues. Now, my question is, who is negotiating with whom? Do 
you know?
    Mr. Butler. Yes, well, I do up to a point, but obviously 
having left my previous job almost 2 months ago now, I have 
been somewhat excluded from the level of detail that I 
previously had when I was on the job. But one of those 2 months 
they took off, the month of August, the Northern Hemisphere 
holiday month. So nothing happened in that month, except maybe 
Saddam Hussein got some of his weapons factories up and running 
again. Now, I do not know that for sure, but I think it is 
foolish to make any other assumption.
    So in the period since I was closer to those negotiations, 
it--I am sorry, in the main period of those negotiations, it 
went like this. OK?
    First, the British put down a draft resolution on the table 
which the Dutch decided to support. Instant response was a 
Russian draft resolution on the table which the Chinese decided 
to support, so you had the lines of battle drawn. The United 
States stood back and looked for a little while and thought 
about things. And France, in a way--I hope I will be forgiven 
for saying this--in a way that is, let us say, not untypical 
and especially creative, the French are like that--kind of said 
that it was looking with interest at both sides. Kind of 
straddled things.
    The Chairman. Two quick questions. Well, go ahead.
    Mr. Butler. Now since that time, the negotiation I think 
has shown that the Russian and Chinese draft has basically got 
no future because of the summary removal of sanctions without 
first getting any kind of disarmament or monitoring guarantees. 
Although in that time, France joined up to that resolution, and 
the United States joined up to the British-Dutch resolution.
    But in addition, six or seven other member states of the 
Security Council joined up to the British-Dutch resolution, so 
that is the main document now, that, as I said in my statement, 
that is the one that is the focus of main attention. Last week, 
however, when very senior people from the permanent five 
members of the council were gathered in New York for the 
beginning of the General Assembly, their attempt to come to 
consensus on that British draft resolution, which theoretically 
has about 11 votes out of the 15 behind it, that attempt broke 
down. And Baghdad in addition said we do not care what you do; 
we are not going to accept it, so I do not think there is much 
of a future in this.
    The Chairman. Did you ever discuss this with Kofi Annan, 
the Secretary General?
    Mr. Butler. Did I discuss which?
    The Chairman. Did you discuss this entire problem with the 
Secretary General?
    Mr. Butler. On many occasions. But this----
    The Chairman. Was he sympathetic or did he take any 
position or what?
    Mr. Butler. I have not discussed these draft resolutions 
with him because they became live at the time when I was moving 
on to the Council on Foreign Relations and, no, I have not 
discussed those with him.
    The Chairman. Very well. Let us say 6 minutes. And we 
welcome you, Senator Kerry.
    Senator Kerry. Thank you, Mr. Chairman. I apologize.
    The Chairman. You are Mr. Kerry?
    Senator Kerry. Still am, Mr. Chairman. To my pleasure, but 
the chagrin of some.
    Mr. Ambassador, welcome, and thank you very much for being 
here with us. I appreciate the many conversations you and I 
have had. I appreciate your confidences during that period, and 
I also want to express my respect for the great effort that you 
made under difficult circumstances to try to see that the words 
spoken in the U.N. and by politicians had some meaning, and 
that can sometimes be a difficult task.
    There is a huge irony, I think maybe not so big to some, 
but I am looking around here. We are talking about the same 
Saddam Hussein who was equated by some to Hitler. We were 
willing to marshal an entire Army to prevent him from doing 
certain things in the region, and there was an urgency in the 
aftermath of that, to contain the proliferation, the strategic 
threat that this individual represented to the world, an 
urgency that has led us to fly no-fly missions since that time, 
put American forces at risk, to continue to be dropping bombs 
and firing missiles, and yet there is not a lot of interest in 
this, not a lot of colleagues here today. And in fact, most of 
the world seems to have backed off from the realities of the 
threat that this individual and his acquisition of weapons of 
mass destruction represent.
    I personally believe that nothing has changed. I think you 
share that belief?
    Mr. Butler. Right.
    Senator Kerry. I think we are exactly in the same situation 
we were when all of this urgency was expressed by so many 
people. We are in exactly the same situation, except that we 
have had now 1 year without any inspections. You were concerned 
during the time that you had inspections that he was capable of 
continuing to employ subterfuge and guile and all kind of 
tricks in order to continue to build weapons. And I think the 
assumption of most people in the intelligence community is that 
that is exactly what he has been doing, is that correct?
    Mr. Butler. That is correct.
    Senator Kerry. Is there any indication to the contrary?
    Mr. Butler. Not to my knowledge, no.
    Senator Kerry. So in fact the threat that was sufficient to 
summon all of this international outrage and the very precise 
and clear goals, as clear as any goals I have ever seen the 
U.N. state, that threat is in fact greater today than it was 
then, is it not?
    Mr. Butler. It is undiminished and possibly greater because 
of the absence of monitoring.
    Mr. Kerry. So what has happened? Have we been bamboozled? 
Is our policy simply a failure? Are we frightened? Is there 
something that has changed in the nature of this threat? 
Because I really do not understand it.
    And it seems to me that for the cause of nonproliferation, 
whether it is with respect to Iraq or any other number of 
countries about which we have enormous concerns, the message 
that comes out of this is that maybe the forces aligned to try 
to hold people accountable are in fact paper tigers, and not 
serious about it.
    Mr. Butler. I think I would like to approach your questions 
in two parts. One part has to do with what is happening on the 
ground in Iraq. And the other is the much more difficult 
question of why have we seemed in the last years to have walked 
away from this, where on your assumption the situation has not 
changed. If anything, it may be worse.
    Now, on what has happened on the ground in Iraq, I think it 
is very important for me to say that we are not absolutely 
sure. And that is because we are not there, and the point I am 
therefore trying to underline is that it is important to have 
an arms control and monitoring presence in Iraq. Its absence 
harms us greatly. It reduces our knowledge in a way that is 
dangerous.
    Now why? Why in Iraq? And the answer is the track record. 
This man has shown over a decade and a half a profound 
addiction to weapons of mass destruction. He has used them 
inside and outside the country, the former meaning including on 
his own people. As a means of domestic political control, he 
has used chemical weapons.
    Now that is an established track record. And I add to that 
what are the conventional tests of whether or not a crime has 
occurred. Did the person have the means, the motive, and the 
opportunity? And the answer with Saddam Hussein and weapons of 
mass destruction is, yes, we know he had the means. He was 
making an atomic bomb. Mercifully, we stopped him. We know that 
he made chemical and biological weapons and used chemical 
weapons. We know that he had long-range missiles with which to 
deliver various kinds of warheads.
    The Chairman. Go ahead.
    Mr. Butler. And so we know he had the means. We know from a 
variety of ways that he has the motive, and he has demonstrated 
that.
    Finally, this is what I want to focus on. He now has an 
opportunity because of our absence which is larger than any 
opportunity he has had in almost the past decade. So that makes 
for a very serious situation and my position on it is this. I 
do not know precisely what is happening in Iraq now because of 
our absence, but I think it would be utterly foolish to assume 
that he is not taking the opportunity of that absence to 
reconstitute these weapons of mass destruction programs. That 
is what the track record is, and that is what means, motive, 
and opportunity represents.
    Now, on the other part of your question, why is not the 
world community dealing with it? Well, one cannot know 
precisely, but one--well, let me have a shot at it. Saddam 
Hussein has sat out the world community in a sense. By a 
process of longevity, attrition, digging in, he has just 
decided that time is not a factor for him. And the world 
community in some respects has grown tired, tired of the 
continuation of the same problem, the recurrent Iraq syndrome.
    That has been reflected to me on many occasions. I recall 
it elsewhere, a discussion I had with an ambassador in the 
Security Council, and if I may, I will just share it with you 
now. I will not name him out of discretion. But a distinguished 
ambassador in the Security Council said to me about a year ago, 
he said, Richard, I know the man is a homicidal dictator. I 
know he has been lying to you. I know he retains weapons of 
mass destruction, but cannot we get the Iraq problem off our 
plate?
    Now, I found that obfuscatory nonsense, because it 
separates the substance of the problem from the need for a 
solution. This may be terrible, but cannot you please take it 
away from me? The only way it can be taken away is by 
addressing the substance. Now, the world community seems to 
have grown tired of it. And has then second had other 
preoccupations, whether Kosovo or now East Timor or wherever.
    Next point is Iraq has staged a brilliant propaganda 
campaign about sanctions and how harmful they are to the people 
and how this has all gone on too long. Mentioned everything in 
sight except the one salient fact, which is the personal 
responsibility that they have for these circumstances.
    And I think there have been very influential reasons why 
this has gone from the headlines. But I made a point earlier, 
Senator, today, where I said predictions are always dangerous, 
of course, but I do not believe that is a permanent phenomenon. 
He is there and he will be back.
    The Chairman. Senator Brownback.
    Senator Kerry. Mr. Chairman, I do have some more questions, 
but maybe we will have another round, if I may ask them then.
    The Chairman. OK.
    Senator Kerry. Thanks.
    Senator Brownback. Thank you, Mr. Chairman, and thank you, 
Ambassador Butler, for coming here. And I want to thank the 
chairman for holding this hearing. I think it is very important 
that we do this. Just building on your last statement, the 
situation has evolved to what I had feared the most would 
happen, which is that we would confront Saddam for a period of 
time and then we would grow weary of this good deed and then go 
somewhere else in the world and seek to do another good deed 
because this one became recalcitrant and it was not solvable in 
a short enough window of time, and so we just got bored and 
moved on.
    And Saddam is left there, which is precisely what the 
neighbors in the region were most concerned about as well, the 
other countries adjacent to him, is that we would stir up the 
hornet's nest and then not remove it at the end of the day. And 
so that they are left there faced with him developing weaponry 
again, them having taken in many cases very difficult stances 
against Saddam Hussein, and then we leave to go and do a good 
deed somewhere else before finishing this one up.
    Ambassador Butler, one of your points that I want to get to 
specifically is, I think you said in your written testimony 
that Saddam Hussein would never accept a legitimate 
inspections, weapons inspections regime for weapons of mass 
destruction, is that correct? Do you think he would never 
accept one that would actually get to the very heart of his 
program to develop weapons of mass destruction?
    Mr. Butler. I do not think that is in the written 
testimony, but I welcome the question. By the way, on the first 
part of your remarks, may I say I am also one of those people 
who would like to move on. I mean, I am sick of talking about 
Saddam Hussein and Iraq. You know, I have got other things to 
do with my life. The two reasons why I think we have to 
continue to address this issue are in my statement, and they 
are not so personalized to him and his regime. I hope and 
assume the Iraqi people will take care of that sometime soon.
    But they have to do with what is now almost a half-century-
old attempt by the world community to restrain the spread of 
weapons of mass destruction, in all of their aspects. His 
behavior has constituted a major threat to those regimes. I 
think we have to protect those nonproliferation regimes.
    Also, his behavior has deeply challenged the authority of 
the Security Council in a way that I think is potentially very 
dangerous and could have widespread effects in other parts of 
the world. Now, so I--just quickly, the second part of your 
question?
    Senator Brownback. Will he ever accept a legitimate arms 
inspection regime that goes to the heart of developing weapons 
of mass destruction?
    Mr. Butler. Ah, sorry. The track record says no.
    Senator Brownback. Do you have anything to believe----
    Mr. Butler. Well, notwithstanding that, UNSCOM actually 
produced a terrific outcome, at the cost of years. It should 
have been done in a year. It took 6 or 7 years to get our main 
outcomes, which was a fairly complete account of their missile 
program, and of their chemical, but not of their biological. 
And that task took far longer and was made far harder than it 
should have been because at no stage did Iraq show that it was 
prepared to genuinely cooperate with an effective arms control 
regime. So I think the answer is basically, no. They have 
always resisted that.
    Now, what is proposed in the British-Dutch resolution, on 
paper, is actually a genuine regime. Now, it is for that reason 
that I think one of two things will happen. Either Iraq will 
not accept this resolution if it is ever adopted, because it is 
a genuine regime, or it will accept it, but then seek to water 
it down from within, in the way that they tried to with UNSCOM 
procedures.
    Senator Brownback. The reason I raise that point is because 
of Saddam's track record and my own belief that what we need to 
do, Mr. Chairman, is move forward and press the administration 
to move forward on implementation of the Iraq Liberation Act. 
That the problem continues to be Saddam. It has been Saddam. It 
has been and continues to be his willingness to use these 
weapons of mass destruction wherever, even against his own 
people, and we need to press the administration to implement 
fully this act to remove Saddam Hussein.
    Even if the British and Dutch proposal is accepted, I think 
we have got clear operating history on his part. He is just 
going to continue to thumb his nose at it, regardless. And now 
he has got a weakened international resolve, or at least a much 
more distracted international community, if nothing else, to 
the point that he has got to be feeling pretty good, that he is 
just going to ride this one out unless we really press them to 
implement this act, and I think we need to do so now. Thank you 
for holding the hearing, Mr. Chairman.
    The Chairman. Thank you. Senator Wellstone.
    Senator Wellstone. Ambassador Butler, I would like to thank 
you for appearing before the committee, and I appreciate how 
tireless you have been in your efforts to disarm Iraq and your 
extraordinary service to the international community. I have a 
couple of questions, trying to stay within my time limit.
    You have focused, of course, on the whole question of what 
is going on with Iraq's efforts to build long-range missiles 
and weapons of mass destruction, and I think about the 
worldwide effort to limit the proliferation of these weapons. 
What importance do you attach to various nonproliferation 
treaties and what realistic prospects do you see that these 
regimes would be useful?
    Mr. Butler. Well, I said a moment ago I would like to get 
on with some other non-Iraqi things in my life and that would 
see me returning to something----
    Senator Wellstone. I thought I would build on that point 
that you made.
    Mr. Butler. Thank you. That would see me, Mr. Chairman, 
going back where I started a quarter of a century ago, as a 
young man of the Australian Atomic Energy Commission looking 
into the problem of the spread of nuclear weapons. And as we 
come to the end of the 20th century, I think we can truly say 
that in a very difficult period of world history, a period that 
I would start with the depredations of Hitler, who was wanting 
to make an atomic bomb, by the way, and it comes down to where 
we are now 100 days away from the end of the 20th century. 
There have been a lot of bad things happened, and in various 
parts of the world. The Middle East is not alone. Think of Pol 
Pot in Cambodia, for example.
    But there have been some good things happen. I think one of 
the things that humanity can be truly proud of in this last 50 
years is the building that started, started with a proposal by 
the United States of America, weeks after the detonation of the 
atomic bomb, called the Baruch plan, 1946, we started a process 
of saying, you know, we can live a civilized life. We can build 
a world in which weapons of mass destruction do not just willy 
nilly proliferate. We can have regimes that keep this sensible. 
And it started with nuclear. It went on to biological, on to 
chemical, and now missile technology control regime.
    And, Senator, on the whole, I think those regimes are 
sound. The least sound one is the biology one because it is the 
hardest to verify, but on the whole, I think they have served 
humanity well, and they have rested on the three key things 
that those treaties need. One is the moral judgment that some 
weapons should be inadmissible, followed by the political 
commitment to build treaties to give effect to that judgment, 
that moral judgment, and third, the practical, hardheaded 
business of inspections, verification, the means to seek and to 
provide confidence to others that these treaties are being 
obeyed.
    Now, they have all got faults. They are all hard, but my 
answer, Senator, is that on the whole, this tapestry of 
treaties we have built is good, and has helped keep this world 
far safer than it looked like when President Kennedy, I think 
in about 1962 foresaw a world that--or was it 1963?--around 
that time, he had a speech where he foresaw a world where it 
might have 30 or 40 nuclear weapons states in it. So these 
regimes have served us well. Saddam has, root and branch, 
sought to destroy those regimes. And that is the main problem 
he poses.
    Senator Wellstone. Let me ask you a certain question. We 
have disagreements in the committee on the Comprehensive Test 
Ban Treaty. I think it is one of the reasons we need to support 
it. But saving that for another time, I want to--I want to try 
and raise a different question with you, and maybe you have 
covered this already.
    UNICEF estimates that, and I am reading this, more than 
500,000 kids under age 5 have died from lack of access--I think 
this is since 1991--to food, medicine, and safe drinking water. 
Now, they point out to me, they are clear that while Saddam 
Hussein's regime is responsible for some of these problems 
facing Iraq civilians, that the sanctions are also responsible 
for some of these problems, and the administration's recent 
response to the UNICEF report and to the State Department's 
statements explaining the report, what they do is they--the 
administration has said, look, the sanctions, we do not believe 
sanctions are responsible for any part of this humanitarian 
crisis.
    I want to ask you this question. How do you see the balance 
between the regime's responsibility, I mean, I think we all 
know that Saddam Hussein is a very cruel man, but also the role 
of sanctions? And I know that this has not been your primary--
or maybe I can ask you this as a diplomat in residence at the 
Council of Foreign Affairs, your analysis or evaluation of the 
sanctions.
    Mr. Butler. Yes. I will answer it in that role. I could not 
while I was head of UNSCOM.
    Senator Wellstone. I know that.
    Mr. Butler. Now, I draw a distinction between the structure 
of sanctions and their specific details. By the structure, I 
mean their very existence. It begins with a legal decision by 
the Council to impose sanctions. And their nature, their nature 
in this particular case is spelled out in a couple of Council 
resolutions: that it will apply to certain things, but not to 
food and not to medicines and so on.
    That they are there or not, and what they are, that is what 
I mean by structure. In that context, I say to you plainly that 
the person who is responsible for them being there and has 
refused to allow them to be removed in an early date is the 
President of the Republic of Iraq. End of story.
    Now, the second thing, their practical nature and impact. 
These sanctions have been harmful to too many ordinary Iraqis. 
The community has progressively tried to address that. The 
Iraqi Government has greatly contributed to the harm by 
maldistribution and hoarding and dishonesty with respect to the 
materials. But nevertheless, these sanctions have been harmful 
and for the future, I think the answer to that problem lies in 
a much more sophisticated design of sanctions as such: targeted 
sanctions.
    The Chairman mentioned in his remarks that Saddam Hussein 
is one of the richest men in the world, and the people around 
him are doing very well. They are the people who should be 
targeted, the Swiss bank accounts and so on, not the ordinary 
people, and I think sanctions would then be more effective.
    The Chairman. Very good. All right.
    Senator Wellstone. Thank you very much. It was very 
powerful.
    The Chairman. Sir, let me, I have two or three questions 
that I really want to ask you. You did an article for Talk 
magazine which I found very interesting. You referred to Russia 
as the strongest, I believe advocate--no, most aggressive 
advocate of Saddam. Who else is an aggressive advocate of 
Saddam, China?
    Mr. Butler. Well, yes, Mr. Chairman. Going back to that 
earlier question about the U.S. and U.K. on one side and 
Russia, France and China on the other side, that second side 
varies in intensity of advocacy of the Iraqi position, but 
certainly I recorded in that article, and I stand by it, that 
Russia has--became a most active, proactive advocate of Saddam 
and the Iraq position. I said in that article that I found it 
extraordinary that on many occasions, the Russian Ambassador 
would come to my office with Saddam's shopping list, and I 
would think, well, this man is supposed to be representing 
Russia, but here is he in my office saying this is what the 
Iraqis need. Not an absolutely invalid thing to do in 
diplomacy. But it was, as a matter of degree, I thought a bit 
extreme.
    And the Chinese, too, for their reasons, have been quite 
supportive of Iraq, and France for yet its other reasons have 
not been in that first camp that--the main members of which 
have been the U.S. and the U.K. I hope that answers your 
question.
    The Chairman. Would it be fair to say that if this were a 
poker game, Mr. Saddam Hussein would be holding a royal flush 
himself? Russia, China, a do-nothing United Nations and Kofi 
Annan sitting it out. Is that approximately correct?
    Mr. Butler. This is an admission that maybe I should not 
make on camera, but I inadequately understand the betting 
system in poker to be able to deal with the question in that 
form. But let me--I think I know what you mean, the winning 
hand.
    I am concerned about this. That Saddam Hussein, absent arms 
control monitoring and inspection, is rebuilding his weapons 
capability. I answered that question earlier by referring to 
means, maybe even opportunity. Our absence gives an enhanced 
opportunity. And I think that is very serious.
    On the economic side of it, sanctions and all that, it is 
well-known that he and his cronies have developed an enormous 
black market industry, exporting oil and so on, which the 
British-Dutch resolution would try to rein in by bringing it 
above the ground from below the ground, and I think that is 
probably another reason why the Iraqis would not like this 
resolution, because this healthy little industry they are 
running on the black market now could get shut down. So--you 
know, they are doing quite nicely out of all of that. So is 
that two cards, Mr. Chairman? I do not know how close you are--
--
    The Chairman. So far.
    Mr. Butler. Two cards. Let us try this. I did refer earlier 
to the divisions in the Security Council. I think it is almost 
an axiom that the beneficiary of any division amongst the five 
in the Security Council is the rogue state. So that is his 
third card, I guess.
    Now, against that, I cannot believe that he is feeling all 
that comfortable about having dropped out of the headlines. You 
know, I really do think--I think that Iraq has done very well 
in propaganda terms by being in the headlines, and now that 
they are not, almost as if the problem is being ignored, I am 
not sure that they will be feeling very comfortable about that. 
And finally, if there is any truth in what they repeatedly say 
about wanting to be free of sanctions and back as a normal part 
of the international community, they are not going anywhere on 
that run, so that is two cards down, is it not? So I think it 
is a mixed bag.
    The Chairman. But he has got a winning hand so far because 
he is pushing everybody else around.
    Mr. Butler. I do not----
    The Chairman. Including your own self?
    Mr. Butler. Sorry to say this, but it saddens me greatly 
and I think it is wrong, but I do not think in this current 
period of a year of our absence from Iraq, I do not think you 
could call him the loser.
    The Chairman. Very well. One final note. You do not have to 
comment on this, but I talk to a lot of young people who come 
to the office, college students, and they do not even know who 
I am talking about when I talk about the Kurds, let alone what 
Saddam Hussein did to them. He murdered thousands of his own 
people. And he left many others maimed horribly, and yet, that 
is not known by the people being educated in our schools today, 
colleges today.
    I see my time is up. I am going to yield to the 
distinguished Senator from Massachusetts.
    Senator Kerry. Thank you, Mr. Chairman. Do I understand 
your position to be, Mr. Ambassador, that if the real 
inspection protocol put forward now were to be implemented, if 
they did surprise you and accept it, that you would be 
satisfied with that inspection regime sufficiently--if lifting 
the sanctions is what it takes to get that real regime, you 
would take that deal?
    Mr. Butler. This British-Dutch resolution, I want to be 
very plain about this. I think it is a central question. We 
have not got time, Mr. Chairman, to analyze it, but you have 
got excellent staffs and you are brilliant people yourselves. 
You can read it for yourself and see what it means, what it 
provides.
    My view of it is that it would, it would on paper 
reinstitute an acceptable arms control and disarmament system. 
Now, the price that it offers--or rather, it is the other way 
around, the incentive that it offers for Iraq to accept this, 
and have monitoring and arms control back in their country, is 
this 4-month rolling suspension of sanctions. I have mixed 
feelings about that.
    But this goes, Mr. Chairman--Senator, the Chairman made a 
point in his opening remarks where he raised this issue that 
some people have raised that any inspection is better than 
none, and raised that as a question. My answer, Mr. Chairman, I 
will give it now, you did not actually ask me directly, but it 
is that I agree with you. I do not think any inspection is 
better than none. I do not think we should be in the business 
of taking counterfeit bills, someone handing you a piece of 
Monopoly money and saying, well, it is not legal tender, but it 
looks like it. Phony inspections would give a false sense of 
security. We need real inspections.
    So, Senator Kerry, this document, I think, properly 
implemented, would give real inspections. The question of 
whether or not this incentive of 4 months' release from 
sanctions being rolled over, depending upon Iraqi compliance, 
whether or not that is a good idea, whether or not the great 
powers will come to accept it, is something that I have some 
misgivings about. And you know, I guess it is really for others 
and larger people than me to decide. If they can get----
    Senator Kerry. The argument can be made that if you can get 
that real inspection, and you have agreed it is a real 
inspection, so if that is the inspection that we are agreed to 
over a 4-month period, you can raise the profile of the issue 
again and begin a process----
    Mr. Butler. Right.
    Senator Kerry [continuing]. Of focusing on the inspections, 
which is nonexistent today. I would assume that you would agree 
that if it is really going to be a rolling 4-month, that you 
are better off testing a real one. Now I agree with the 
chairman. I do not think any inspection is worth anything, if 
it is just any. It has to be satisfactory to those who make the 
tough judgments of whether or not they are getting the answers.
    Mr. Butler. I agree with that. I think this is a good 
meeting of the minds, Mr. Chairman. And you know, at the back 
of this resolution is something that is terribly, terribly 
important. This provision here, that the new head of UNCIM, as 
it would be called, the successor to UNSCOM, and the Director-
General of the International Atomic Energy Agency, they have to 
certify that this is being done properly, and then you get the 
120-day rollover. But at anywhere they say it is not, that Iraq 
is cheating again, all bets are off. Now, I think that is very 
important.
    Senator Kerry. We are back to where we were.
    Mr. Butler. Yes.
    Senator Kerry. The question is whether or not if we go back 
to where we were, having reasserted the principle and 
recommitted ourselves to that outcome, whether or not we might 
have the staying power and the courage to proceed forward. I 
mean, I would rather have it refocused on and re-energized, 
than continue down the road we are on today, which I think is 
far more dangerous.
    Mr. Butler. Right. I agree with that. I agree with that. 
And in that context, can I just say that test of Iraqi 
compliance, I actually think would come quite early.
    Senator Kerry. I am convinced. As many of us predicted, I 
think yourself included, that, although quietly and privately, 
that it would almost certainly come in the last round. And the 
question was always what are we prepared, we the international 
community, prepared to do about it.
    Let me ask you another question. It is a little bit 
sensitive because this is the place where we are having some 
disagreements on it. But I have heard from many people when I 
talked to people in the international community as we try to 
leverage a coalition on this, that people say, well, you know, 
your hands are not very clean, you the United States, because, 
of course, we have not joined the community of nations in the 
comprehensive test ban.
    Do you have an opinion as to whether or not this is 
something you feel leverages against us and has a negative 
impact on our moral suasion or other capacities to, if not real 
capacities, to argue for a stronger proliferation regime 
internationally--anti-proliferation regime?
    Mr. Butler. I think the linkage is false. I think both 
things are important. It goes without saying that I personally 
hold, intellectually and personally, great importance to the 
CTBT. Among other reasons, because I was the one who brought it 
to the floor of the General Assembly in 1996, having spent 25 
years working for it. I think it is outstanding that the United 
States signed it. I think it should ratify it. And I think that 
would send a very important signal to the rest of the world 
with respect to nuclear weapons as such and the United States' 
position on sensible arms control.
    But to link that in some negative way to the transgressions 
of Saddam Hussein is a false linkage. And this has dogged the 
process. It is polemical and has dogged the process of dealing 
with something that is absolutely simple. The Council made 
clear-cut international law on the disarmament of a rogue 
recalcitrant state. It created a system to get that job done, 
and the government concerned has sought to defeat that system 
from day one. That is a problem that is serious and must be 
treated intrinsically. I do not see that there is anything 
beneficial or even logical in seeking to link that to another 
part of the arms control field which has its own intrinsic 
importance.
    Senator Kerry. Mr. Chairman could I have your indulgence 
just to continue?
    The Chairman. Go on ahead.
    Senator Kerry. Thank you, sir. When we came to one of the 
early confrontations a year and a half, 2 years ago, I don't 
remember exactly when in time now, many of our former allies in 
the coalition that President Bush put together expressed a 
willingness to go the distance, but only if the United States, 
and Great Britain, obviously, were really prepared to do so. 
And it was their lack of a sense that we would be there when it 
finished that held them back, and then we began to hear that it 
was hard to put the coalition together again. And I wonder if 
it is your perception which came first, sort of the reluctance 
to participate in the coalition, or the perception that the 
United States or Great Britain were not prepared to go the 
distance and, therefore, they too sort of looked to the longer 
term and a different approach?
    Mr. Butler. I do not know. I am sorry. I do not know.
    Senator Kerry. But you are familiar. You know the equation?
    Mr. Butler. Up to a point. One of the things I think that--
--
    Senator Kerry. Well, do you think the coalition could have 
been put back together, let me just ask you that bluntly, to 
uphold the full measures of what the United Nations resolution 
called for?
    Mr. Butler. For example, at the time of Desert Fox. With 
difficulty. If it had been----
    Senator Kerry. Or was it impossible?
    Mr. Butler. It would have been better if it had been, but 
more important was for the five permanent members to stand 
together. I said in my opening statement here today it has no 
substitute. I do not believe that Iraq and Saddam Hussein could 
hold out for long if the five really stood together and said to 
him, you are not going to stay outside this law. We mean it. 
And we mean it together. There have been repeated instances in 
contemporary history that demonstrate that. The five must stand 
together.
    And, second, what signal does it send when states who 
themselves made the law then proceed to walk away from its 
enforcement? The law we are dealing with here was made by 
Russia, China, France, as well as the U.S. and the U.K., so it 
starts with those five.
    Now, one factor I would mention in your theoretical 
question of putting the coalition back together was something 
we did hear through 1998 as Iraq repeatedly pushed us into 
crisis, then in November there was an almost bombing that was 
called back, and then there was a bombing in December. In the 
months leading up to that, going right back to the time when 
the Secretary General went to Baghdad in February, March, 
April, that period, one of the things we heard, for example, 
from potential members of the coalition, senior representatives 
of Gulf states, was quietly and pleasantly uttered, but 
seriously meant remarks about how in the intervening years 
between Desert Storm and Desert Fox, you had not paid us that 
much attention. But now that it seems you might need us again, 
you are coming back.
    And I am not in a position to, and I do not make this as a 
direct criticism, but I observe that what they were saying was 
that we would like to be attended to on a long-term basis, not, 
and continually, continual diplomacy, not just on occasions 
where a sudden need starts to emerge. And I think there may 
have been a message there.
    Senator Kerry. Well, I thank the chair and I thank you 
again. I just, as a parting comment, I mean, the strategic 
exigencies that brought us to understand that it was 
unacceptable to have the invasion of Kuwait, which was cloaked 
in a certain amount of rhetoric, was far more oriented toward 
longer-term implications of the potential of his moving further 
south, oilfields, economy, as Jim Baker said back then, it is 
about jobs, and then they found other rhetoric to couch it in, 
but that was a code word for those oilfields, and I think the 
longer-term strategic implications of the Middle East.
    Now, that was sufficient to bring all of us to believe, 
though timing was questioned, that we had to be prepared to use 
force. And we ultimately did. It seems to me that a Saddam 
Hussein who has the ability to develop potentially more 
threatening weapons of mass destruction, notwithstanding--I 
mean, it was the show of force and the determination of the 
United States that really took away from him that option 
previously. If that determination is not there, then the use 
that he put it to previously in other circumstances could 
become far more attractive again in the future, which I think 
is the bottom line of what you were saying.
    So I think we are--and I thank the chair for having this 
hearing--I mean, I think we are talking about a very 
significant and large strategic interest to the United States 
that for various reasons has been second tiered to more 
emotional and certainly of-the-moment perceptions of other 
issues that do not rise to the same strategic, longer-term 
interests of our country.
    So I think it is important for us to be thinking about 
where we go because I have said, and I think you and others 
have said, as long as he is there, and it may well be that the 
Iraqi people will settle that, but as long as he is there, I 
think most people understand that that threat remains and it is 
real, so--and there is a time of confrontation. So I think we 
are better to do it sooner rather than later and to be real 
about our resolve. Thank you, Mr. Chairman.
    The Chairman. I thank you, Senator.
    Mr. Butler, we have in the audience several Iraqi 
opposition leaders, including the leaders of one main Kurdish 
party, and a representative of the Shiites in Iraq. I do not 
know whether they want to stand up or not, but the chair wants 
to welcome you and compliment you on coming here. Thank you 
very much.
    And finally, on a personal note, Mr. Ambassador, regarding 
the Comprehensive Test Ban Treaty, I think it ought to be made 
a matter of record in this hearing that this treaty would give 
Saddam Hussein the very protections that he pursued but was 
denied in his efforts to undermine UNSCOM. I will give you 
several examples.
    Saddam demanded the right to veto the participation of 
particular nations, specifically, specifically the United 
States and the United Kingdom, on inspection teams. CTBT denies 
the United States the right to have inspectors on any 
inspection conducted at the U.S. request.
    Saddam repeatedly sought to dictate which UNSCOM inspectors 
could and could not participate in inspections. Several UNSCOM 
officials such as David Kane, Scott Ritter, were the subjects 
of Iraqi attacks. The Comprehensive Test Ban Treaty grants 
countries the right to reject individual inspectors.
    Saddam sought veto rights over specific equipment brought 
to the inspections. In negotiations currently underway in 
Vienna to develop the inspection regime, countries are being 
given a veto over equipment to be included on the approved list 
for inspections.
    Saddam sought to declare certain sites as off-limits to 
inspections. The so-called Presidential palaces with which you 
are familiar were a little more than a safe haven for sensitive 
documents that were being concealed from UNSCOM. The CTBT gives 
the inspected party the right to ``take measures to protect 
sensitive installations'' and to declare 50 square kilometers 
as restricted access sites. Inspectors under that treaty are 
not permitted to collect technical signatures of a nuclear test 
in those areas.
    In sum, Mr. Ambassador, for 8 years the United States--
correctly, I think--led the international community in 
rejecting Saddam Hussein's effort to hamstring UNSCOM by such 
tactics, only for the present administration in Washington to 
turn around and codify such measures in a global arms control 
treaty. So I just wanted to make that as a record, about my 
feeling. If you have any comment that you want to make, I 
welcome that, too, sir.
    Mr. Butler. You are very kind, Mr. Chairman, but I have 
listened with great interest to what you have said, but I have 
no comment to make at this time.
    The Chairman. Very good. Well, let me say to you, sir, that 
you have honored us by your presence here this morning. I 
cannot recall another witness who was as succinct as you have 
been and as responsive to questions. Thank you for coming. And 
if there be no further business to come before the committee, 
we stand in recess.
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
